  OBLIGATIONS AND DUPLICATE PAYMENTS ON AIR FORCE
        MAINTENANCE CONTRACT FA2550-96-C-0003


Report No. D-2001-090                   March 30, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
ACRN                  Accounting Classification Reference Number
DFAS                  Defense Finance and Accounting Service
IAPS                  Integrated Accounts Payable System
                         Office of the Inspector General, DoD
Report No. D-2001-090                                                      March 30, 2001
   (Project No. D2001CF-0054)

              Obligations and Duplicate Payments on Air Force
                 Maintenance Contract FA2550-96-C-0003

                                  Executive Summary

Introduction. We conducted this audit in response to a request by contracting officials
at the 50th Space Wing, Shriever Air Force Base, Colorado Springs, Colorado. The
contracting officials were concerned that Defense Finance and Accounting Service
Omaha had mishandled the posting of obligations and the processing of vendor payments
on a $25.5 million, multiyear, maintenance contract. Accordingly, the contracting
officials questioned the validity of providing two funding adjustments that were
requested by the operating location.

Objective. The overall audit objective was to assess whether obligation and
disbursement functions were properly executed and whether funding adjustments to the
subject contract were required.

Results. Defense Finance and Accounting Service Omaha personnel did not completely
or accurately post all contract modifications, obligations, or disbursements on this
contract.

   •   Over $2.9 million in erroneous obligations were posted to this contract.

   •   Fifty-eight disbursements had incorrect fund citations.
   •   The contractor was paid nearly $530,000 on seven duplicate disbursements.

   •   There were over $700,000 of unnecessary upward adjustments of obligations
       posted to this contract.

   •   Attempts to properly administer and ultimately reconcile this contract were
       frustrated.

For details on the audit results, see the Finding section of the report.

During our review, Defense Finance and Accounting Service Omaha improved controls
over posting obligation data and processing disbursements by separating organizational
responsibility for vendor payment functions, clarifying vendor pay policy and
emphasizing quality control by accounting technicians. The contractor reimbursed the
Defense Finance and Accounting Service Omaha for the seven duplicate payments.

Summary of Recommendations. We did not make recommendations to Defense
Finance and Accounting Service Omaha because of its increased emphasis to accurately
post obligation data and its initiatives to improve contractor disbursements.

Management Comments. We provided a draft of this report on February 23, 2001. No
written response was required, and none was received.




                                          ii
Table of Contents

Executive Summary                          i


Introduction
     Background                           1
     Objectives                           1

Finding
     Obligations and Duplicate Payments    2

Appendixes
     A. Audit Process
          Scope                            7
          Methodology                      7
     B. Prior Coverage                     9
     C. Report Distribution               10
Background
     Introduction. Contracting officials at the 50th Space Wing, Shriever Air Force
     Base, Colorado Springs, Colorado, requested that the Inspector General, DoD,
     assess obligation and disbursement functions relating to contract FA2550-96-C-
     0003. The officials were concerned that the Defense Finance and Accounting
     Service Omaha (DFAS Omaha) mishandled obligations and payments under this
     contract. Contract FA2550-96-C-0003 is a multiyear, cost-plus-award fee
     contract that provides maintenance services to the 50th Space Wing, Shriever Air
     Force Base. The last option year for this contract concludes September 30, 2001.
     The contractor is Management Logistics Incorporated, a subsidiary of Brown &
     Root Corporation. The total cost of the contract is estimated at
     $25.5 million. The work includes operation and maintenance functions such as
     uninterrupted power supply, heating and cooling, fire detection, fire suppression,
     corrosion control, and construction on specific buildings at Shriever Air Force
     Base. The contractor submits invoices directly to DFAS Omaha for payment.

     The Defense Finance and Accounting Service Omaha. DFAS Omaha is
     responsible for providing accounting and finance services to 16 Air Force bases
     and other organizations using standardized DoD-wide finance and accounting
     systems. Accordingly, DFAS Omaha processed vendor payments for the 50th
     Space Wing for contract FA2550-96-C-0003. DFAS Omaha used the automated
     Integrated Accounts Payable System (IAPS) to control most installation-level
     commercial vendor payments for Air Force customers. The system records the
     obligation of funds and processes the actual vendor payments, based on input by
     accounting technicians.

Objectives
     The overall audit objective was to assess whether obligation and disbursement
     functions were properly executed and whether funding adjustments were required
     for the subject contract. See Appendix A for a discussion of the audit scope and
     methodology. See Appendix B for a summary of prior coverage related to the
     audit objectives.




                                          1
           Obligations and Duplicate Payments
           The Defense Finance and Accounting Service Omaha did not properly
           execute certain obligation and disbursement transactions for contract
           FA2550-96-C-0003. These deficiencies were caused by accounting
           personnel that did not completely or accurately post all contract
           modifications with obligations to the vendor payment accounting system.
           Accounting personnel also disbursed funds that cited incorrect fund
           citations and paid duplicate disbursements for seven contractor payments.
           Errors involving obligations resulted in unnecessary requests for upward
           adjustments of obligations totaling over $700,000, and frustrated attempts
           to properly administer and ultimately reconcile this contract.

Execution of Obligations and Disbursements
    Establishment of Obligations. Obligations are established based on estimated
    costs incurred on orders placed, contracts awarded, and services received during
    an accounting period that will require payment during the same or future period.
    Obligations for this contract were established through contract modification
    documents submitted from the contracting office at the 50th Space Wing to DFAS
    Omaha. The contract modification documents establishing obligations should
    contain sufficient information, including the correct accounting fund citation.
    Additional information, including work order numbers and accounting
    classification reference numbers (ACRN), is beneficial to correctly enter
    obligations into the Integrated Accounts Payable System (IAPS), and to
    subsequently match the obligation to an invoice for contractor payment.

    Reconciliation Procedures. The 50th Space Wing made 106 contract
    modifications for the period September 23, 1996 through October 4, 2000. Of the
    106 contract modifications, 63 modifications either obligated or deobligated
    funds. We verified that DFAS Omaha received the 106 modifications via the
    Electronic Document Management System. We also matched the data entries of
    the 63 modification documents obligating or deobligating funds into IAPS. We
    accounted for the reconciliation by each fiscal year of the contract.

    Reconciliation Results of Obligations. Net obligations established from
    modification documents totaled $25.9 million as of October 4, 2000. Obligation
    documents matched corresponding entries that were posted in IAPS for FYs 1996,
    2000, and 2001 Operations and Maintenance funding, and FY 1999 Base
    Realignment and Closure funding. There were obligation discrepancies between
    documents and entries in IAPS for FYs 1997, 1998, and 1999 Operations and
    Maintenance funding, and FY 1998 Base Realignment and Closure funding. We
    identified administrative errors totaling $2.89 million, which occurred between
    FYs 1997 and 1999. Table 1 summarizes reported obligations and errors between
    FYs 1997 and 1999.




                                        2
                Table 1. Summary of Reported Obligations
                             (in thousands)
                     Obligations per      Obligations per IAPS2    Obligations
                                        1
                 Modification Documents                         Impacted by Errors
FY 1996                       $ 322                  $ 322                      0
FY 1997                        5,265                  5,101               $ 164
FY 1998                        6,397                  3,668                2,729
FY 1999                        4,868                  4,872                   (4)
FY 2000                        5,112                  5,112                     0
FY 2001                        3,772                  3,772                     0
FY 1998-BRAC                     192                    191                     1
FY 1999-BRAC                      20                     20                     0

Total                       $25,948                 $23,058               $2,890
Notes:
1
  Modification documents minus deobligation letters (net obligations).
2
  IAPS entries that were correctly entered into the accounting system. Also includes
upward adjustment of $557,140.



        Posting Obligations into IAPS. The accounting technician responsible
for posting obligations at DFAS Omaha did not post all modification documents
into IAPS. In FY 1997, one modification, and portions of 11 additional
modifications, with a net total of $164,364, were not posted into IAPS. These
errors included obligations of $164,814 that were not posted, and $450 in a
deobligation letter from the 50th Space Wing. For the FY 1998 Base
Realignment and Closure obligations, one modification document totaling $1,321
also was not posted. When obligations were not posted into IAPS, the funds were
not available for disbursement, which resulted in a request for an upward
adjustment of obligations.

        Sufficient Information for Posting Obligations. The accounting
technician also did not input all information involving obligations as they were
entered into IAPS. During FY 1998, the accounting technician did not enter
adequate information to properly match the posted amount of the obligation with
the correct ACRN for eight entries totaling $2.75 million. Posting obligations
without sufficient information understated funds available for disbursement on
this contract; and frustrated attempts to reconcile modification documents to the
amounts posted into IAPS.

Reconciliation of Disbursements. We reconciled vendor invoices and payment
receipts with disbursement records from IAPS. We reviewed nearly
400 disbursement transactions made by DFAS Omaha between March 1997 and
December 2000. We matched nearly $19 million of DFAS Omaha disbursements
to contractor invoices. A minor difference of $1,800 remained after the
reconciliation. However, we found anomalies when the disbursements were
recorded in IAPS.



                                           3
Disbursement Results. Of the nearly 400 disbursement transactions, accounting
technicians used an incorrect accounting classification when disbursing 58 of the
vouchers. A total of 41 disbursements were incorrect because prior accounting
procedures required that all funds be expended for the accounting classification
for progress payments before using the next available accounting classification for
the same contract. Ten other disbursements had incorrect accounting
classifications because of clerical errors. Finally, DFAS Omaha personnel
informed us that they intentionally used incorrect accounting classifications on the
remaining seven disbursements to expedite the payment to the contractor. In
addition to the 58 incorrect disbursement actions, we also identified seven
duplicate payments that totaled nearly $530,000. The contractor reimbursed
DFAS Omaha for the duplicate disbursements within
30 days.

The 58 disbursements with incorrect accounting classifications did not impact the
accuracy of funds disbursed to the contractor. We found that the errors created
difficulties when attempts were made to reconcile disbursements by fiscal year.
However, the 58 administrative errors were not a factor for requesting the upward
adjustments of obligation on this contract. Table 2 demonstrates that sufficient
obligations were available each fiscal year to support disbursements on this
contract.



           Table 2. Available Obligations to Support Disbursements
                               (in thousands)
                                Obligations                   Disbursements
       FY 1996                    $ 322                               $ 3221
       FY 1997                      5,265                               5,179
       FY 1998                      6,397                               5,966
       FY 1999                      4,868                               4,231
       FY 2000                      5,112                               2,709
       FY 2001                      3,772                                   0
       BRAC                           212                                 192

       Total                      $25,948                              $18,601
       1
         Does not include unreconciled disbursement of $1.8 thousand


      Other Posting Issues. Other errors and posting inconsistencies were
made when the data was entered into IAPS. These amounts totaled $25,855.

       •   In FY 1998, obligations supported by modification documents were
           $21,410 less that the totals posted into IAPS. We could not determine
           the source of the additional obligated amount. Combined with the
           $2.75 million understatement of obligations identified above, the net
           understatement of obligations was 2.729 million.



                                         4
           •   In FY 1999, two obligations were posted into IAPS with the incorrect
               amount. The accounting technician entered $64,942 for the two
               obligations when the correct amount should have been $60,948, which
               resulted in an overstated amount of $3,994.

Summary of Obligations
    Accounting Technician Performance. Accounting errors involving obligations
    on this contract primarily occurred between FYs 1997 and 1999. We identified
    the obligation errors to a specific accounting technician whose employment ended
    in 1998. DFAS Omaha could not identify other open contracts that this technician
    may have administered. However, the majority of the transactions were properly
    posted on this contract subsequent to the technician's departure.

Upward Adjustment of Obligations
    During the term of the contract, DFAS Omaha requested two upward adjustments
    of obligations from the 50th Space Wing program office.

    Original Request. In FY 1999, DFAS Omaha requested an upward adjustment
    of $725,846 to cover shortfalls of obligations of FY 1997 funds. The program
    office granted an adjustment for $557,140 after determining that the initial
    requested amount could be lowered. Based on our review of the original
    modification documents, we concluded that the upward adjustment would not
    have been necessary had DFAS Omaha entered the original modification
    documents correctly into IAPS.

    Second Request. In FY 2000, DFAS Omaha requested another upward
    adjustment of FY 1997 funds. The rationale for the second upward adjustment
    was to reobligate the FY 1997 unrecorded obligations into IAPS. The program
    office postponed approval of the upward adjustment request pending our audit
    results. We concluded that the upward adjustment should be approved because of
    the noted failure to correctly post obligations into IAPS. In addition, the DoD
    Financial Management Regulation permits obligated and unobligated balances to
    remain available to adjust unrecorded obligations for 5 years after the initial time
    period expires.

    Management Reviews. The DoD Financial Management Regulation specifies
    that the fund holder, or the program office at the 50th Space Wing must review
    outstanding obligations for accuracy and completeness. Because the program
    office did not periodically schedule reviews of obligations, the office was
    unaware that DFAS Omaha did not completely enter all obligations into IAPS.
    The accounting errors created a need for an upward adjustment of $557,140 in FY
    1999, and a subsequent request for a second upward adjustment of $150,078 in
    FY 2000. Periodic reviews of obligations on this contract would have identified
    the described accounting errors and prevented the errors from recurring.




                                         5
    Conclusion. We concluded the upward adjustment would not have been
    necessary if funding modifications had been correctly entered into IAPS. Because
    of incorrect information on the modifications, DFAS Omaha also did not
    sufficiently identify entries as they were posted into IAPS and did not completely
    enter all funding modifications. Thus, the upward adjustments were necessary.
    Additionally, the program office should have periodically reconciled obligation
    transactions for accuracy and completeness.

Management Corrective Actions
    Organization Changes. The General Accounting Office Report
    No. AIMD-98-274, "Improvement Needed in Air Force Payment Systems and
    Controls," September 1998, recommended that Headquarters, Defense Finance
    and Accounting Service develop a new vendor payment structure. The new
    structure divided the payment teams into task related branches responsible for
    processing specific functions. With the separation of duties, the obligation and
    disbursement functions became separate branches and each branch has specific
    and uniform accounting responsibilities. DFAS Omaha has incorporated the
    recommended organizational structure enhancements.

    DFAS Omaha Realignment. Prior to the restructuring of accounting
    responsibilities at DFAS Omaha, the accounting technician who entered the
    obligation data did not clearly identify the entry with the accounting fund citation,
    ACRN, or work order number. After the restructuring, we documented that
    DFAS Omaha accounting personnel entered more complete information to
    facilitate the accurate posting of obligations.

    Disbursement Improvements. In September 1998, Headquarters, Defense
    Finance and Accounting Service implemented the Under Secretary of Defense
    (Comptroller) policy involving progress payment disbursements. The policy
    requires the contracting officer or contract administration office to provide the
    operating location with the appropriate ACRN. With the implementation of this
    policy, accounting technicians were provided with the appropriate fund citation
    that, when posted and used, should minimize the accounting errors described in
    this report. Additionally, DFAS Omaha addressed errors involving duplicate
    disbursements by incorporating a computer software application that detects
    duplicate disbursements. Because of the organizational alignment that corrected
    posting obligation data and initiatives implemented to improve contractor
    disbursements on this contract at DFAS Omaha, no recommendations will be
    made.




                                          6
Appendix A. Audit Process

Scope
    Work Performed. We analyzed funds obligated and vouchers submitted by the
    contracting office at the 50th Space Wing at Schriever Air Force Base and
    compared them to obligations posted and disbursements made by DFAS Omaha,
    on contract FA2550-96-C-0003. We reviewed 63 obligations, selected invoices,
    and approximately 400 voucher payments made between FY 1996 and FY 2000.
    We assessed whether obligation and disbursement functions were properly
    executed and whether additional funding adjustments to the contract were
    required.

    Limitations to Scope. We did not review the management control program as it
    relates to the audit objective because it was outside the scope of the audit request.

Methodology
    We obtained and reviewed all obligation documents from the contracting office
    contract file at Shreiver Air Force Base to account for funding obligations. At
    DFAS Omaha, we validated receipt of the obligation documents in the Electronic
    Document Management System. We confirmed whether these documents were
    input into the IAPS. Finally, we compared the amount posted in IAPS against the
    obligation documents.

    In assessing the disbursement function, we obtained invoices and payment
    receipts from the contractor as well as disbursement data from DFAS Omaha. We
    compared and reconciled these records. We also validated the disbursement data
    at DFAS Omaha to verify certain discrepancies involving duplicate payments and
    the use of improper fund cites in vouchers. We reviewed past and current
    Defense Finance and Accounting Service guidance regarding processing
    contractor vouchers. We held discussions with key personnel from DFAS Omaha
    and the 50th Space Wing contracting and program offices. We reviewed
    obligation documents issued by the contracting office and recorded by DFAS
    Omaha with the contractor’s payment receipts and DFAS Omaha disbursement
    records to determine whether upward adjustments to the contract were required.

    Use of Computer-Processed Data. Although we relied on computer-processed
    data from IAPS, we did not evaluate the adequacy of the general and application
    controls of the system. Air Force Audit Agency Report No. 96054010, “General
    and Application Controls Within the Integrated Accounts Payable System,”
    August 1, 1996, states that IAPS controls generally ensured adequate support for
    transactions, effective use of system edits, and proper control over software
    maintenance. However, IAPS did not meet Federal financial management system
    requirements for transaction-driven, double entry accounting, and personnel did


                                          7
not control access to the system. We established data reliability by comparing
data output to source documents. Our tests disclosed that the data were
sufficiently reliable to support the audit conclusions.

Audit Type, Dates, and Standards. We performed this financial-related audit
from November 2000 to January 2001 in accordance with auditing standards
issued by the Comptroller General of the United States, as implemented by the
Inspector General, DoD.

Contacts During the Audit. We visited or contacted individuals and
organizations within DoD. Further details are available on request.




                                    8
Appendix B. Prior Coverage
    During the last 5 years, GAO; the Inspector General, DoD; and the Air Force
    Audit Agency have issued several audit reports discussing Defense Finance and
    Accounting Service obligation and disbursement issues.

General Accounting Office
    Report No. GAO/AIMD-00-10 (OSD Case No. 1919), “Increased Attention
    Needed to Prevent Billions in Improper Payments,” October 29, 1999.

    Report No. GAO/AIMD-98-274 (OSD Case No. 1687), “Improvement Needed in
    Air Force Vendor Payment Systems and Controls,” September 28, 1998.

    Report No. GAO/OSI-98-15 (OSD Case No. 1687-A), “Fraud by an Air Force
    Contracting Official,” September 23, 1998.

Inspector General, DoD
    Report No. D-2000-139, “Controls Over The Integrated Accounts Payable
    System,” June 5, 2000.

    Report No. 99-233, “General Controls for the General Accounting and Finance
    Systems,” August 17, 1999.

Air Force
    Report No. 98054032, “Internal Controls Over Purchases of Goods and Services,”
    February 23, 2000.

    Report No. EO099044, “Internal Controls Over Purchased Goods and Services,
    DFAS-Omaha Operating Location,” July 19, 1999.

    Report No. 96054010, “General and Application Controls Within the Integrated
    Accounts Payable Systems,” August 1, 1996.




                                       9
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, 50th Space Wing, Shriever Air Force Base

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service, Omaha Operating Location

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          10
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Terry L. McKinney
Nicholas E. Como
Chuck J. Chin
Christine L. Haynes
Phillip R. Sartori
